E-Mail Address: 1115 H Street, N.E.
eed briefs@wilsonepes.com Washington, D.C. 20002

WISONEPS PRINTING
tht

Web Site: Tel (202) 789-0096
z www.wilsonepes.com Fax (202) 842-4896
No. 20-1294
SIMON CAMPBELL AND

PENNSYLVANIANS FOR UNION REFORM,

Petitioners,
v.

PENNSYLVANIA SCHOOL BOARDS ASSOCIATION;
MICHAEL FACCINETTO, SOLELY IN HIS INDIVIDUAL
CAPACITY; DAVID HUTCHINSON, SOLELY IN HIS
INDIVIDUAL CAPACITY; OTTO W. VoOIT, III,
SOLELY IN HIS INDIVIDUAL CAPACITY;

KatHy SWOPE, SOLELY IN HER INDIVIDUAL CAPACITY;
LAWRENCE FEINBERG, SOLELY IN HIS INDIVIDUAL
CAPACITY; ERIC WOLFGANG, SOLELY IN HIS
INDIVIDUAL CAPACITY; DANIEL O’KEEFE, SOLELY IN
HIS INDIVIDUAL CAPACITY; DARRYL SCHAEFER,
SOLELY IN HIS INDIVIDUAL CAPACITY; THOMAS KEREK,
SOLELY IN HIS INDIVIDUAL CAPACITY; AND
LYNN FOLTZ, SOLELY IN HER INDIVIDUAL CAPACITY,

Respondents.

AFFIDAVIT OF SERVICE

I HEREBY CERTIFY that on May 28, 2021, the following counsel have expressly waived service
of paper copies by mail and have requested electronic service and that true and correct electronic
copies of the REPLY BRIEF FOR PETITIONERS were served on the following counsel at the e-
mail addresses indicated:

MICHAEL LEVIN

DAVID W. BROWN

LEVIN LEGAL GROUP, P.C.

1301 Masons Mill Business Park
1800 Byberry Road

Huntington Valley, PA 19006
(215) 938-6378
mlevin@levinlegalgroup.com

dbrown@levinlegalgroup.com RX, L d. \ VJ { { .
ee SE

ROBYN DORSEY WILLIS
WILSON-EPES PRINTING COMPANY, INC.
775 H Street, N.E.
sey Washington, D.C. 20002
Zs . Yo’, (202) 789-0096
Sworn to and subgeribed befoie.me this 28th day of May 2021.
o son a ~

@ee<

     

PuBLic

    

COLIN CASEY HOGAN
NOTARY PUBLIC
District of Columbia
My commission expires April 14, 2022.
